                          NATIONAL SCIENCE FOUNDATIOlv
                            WASHINGTON, D.C. 20550




    O f f i c e of'
Inspector G e n e r a l



MEMORANDUM
      DATE:      July 13, 1993
                            Ma-   .




 SUBJECT:         Possible Conflict of Interest by

         TO:     Case No. I93060020

                                                                              ;$




involvement with science educat                          ed a possible
                                                             .            '11
conflict of interest between Ms.
We examined Ms.         conflict of interest file, located in
Office of General Counsel (OGC). There was no record of Ms.
reporting the award or seeking conflicts advice from OGC about the
award, nor was NSTA listed by Ms.             on her Statement of
Employment and Financial Interests (         1). However, w
                                                                          1
checked with the MDR conflicts offic          found that Ms.
                  a recusal memo in April, 1991, which state
                  contacted in any way regarding NSTA. Ac
                  of OGC, unless otherwise stated in the recusal         'I
                   in effect in perpetuity. Therefore, Ms. Moses1
actions were proper. We found no other irregularities in this            1
matter.
This case is closed.
